UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 19-1429
Don Mashak
Appellant
First National Repossessors, Inc.
v.
Commissioner of Internal Revenue
Appellee

Appeal from U.S. District Court for the District of Minnesota
(0:18-cv-02635-SRN)
ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
January 17, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Appellate Case: 19-1429

Page: 1

Date Filed: 01/17/2020 Entry ID: 4872460

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 19-1429
Don Mashak
Plaintiff - Appellant
First National Repossessors, Inc.
Plaintiff
v.
Commissioner of Internal Revenue
Defendant - Appellee
Appeal from U.S. District Court for the District of Minnesota
(0:18-cv-02635-SRN)
JUDGMENT
Before LOKEN, SHEPHERD, and GRASZ, Circuit Judges.
This court has reviewed the original file of the United States District Court. It is ordered
by the court that the judgment of the district court is summarily affirmed. See Eighth Circuit
Rule 47A(a). The appellant’s motion for leave to proceed on appeal in forma pauperis is
granted.
July 23, 2019

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans
Appellate Case: 19-1429

Page: 1

Date Filed: 07/23/2019 Entry ID: 4810923

CASE 0:18-cv-02635-SRN-SER Document 27 Filed 01/18/19 Page 1 of 1

UNITED STATES DISTRICT COURT
District of Minnesota

First National Repossessors, Inc., and Don
Mashak, Personally, and as President of FNR,

JUDGMENT IN A CIVIL CASE

Plaintiff(s),
Case Number:

v.

18-cv-2635 (SRN/SER)

Commissioner of Internal Revenue,
Defendant(s).

[El Decision by Court. This action came to trial or hearing before the Court. The issues have
been tried or heard and a decision has been rendered.
IT IS ORDERED AND ADJUDGED THAT:
1. Plaintiffs’ Objection [Doc. No. 21] is OVERRULED;
2. Magistrate Judge Rau’s R&R [Doc. No. 20] is ADOPTED in its entirety; and
3. Plaintiffs’ Complaint [Doc. No. 1] is DISMISSED WITHOUT PREJUDICE.

Date: January 18, 2019

KATE M. FOGARTY, CLERK
s/Jennifer Beck
(By) Jennifer Beck, Deputy Clerk

CASE 0:18-cv-02635-SRN-SER Document 26 Filed 01/18/19 Page lot 3

UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA

Case No. 18-cv-2635 (SRN/SER)

First National Repossessors, Inc., and Don
Mashak, Personally, and as President of
FNR,

MEMORANDUM OPINION
AND ORDER ADOPTING REPORT
AND RECOMMENDATION OF
MAGISTRATE JUDGE

Plaintiffs,
v.
Commissioner of Internal Revenue,
Defendant.

First National Repossessors, Inc. and Don Mashak, Route 1, Box 231, Albertville, MN
55301, pro se.

SUSAN RICHARD NELSON, United States District Judge
This case is before the Court on Plaintiffs’ objection (“Objection”) [Doc. No. 21] to
United States Magistrate Judge Steven Rau’s December 4, 2018, Report and
Recommendation (“R&R”) [Doc. No. 20]. Magistrate Judge Rau recommended that the
Court dismiss Plaintiffs complaint (“Complaint”) [Doc. No. 1] without prejudice. (R&R
at 3.) For the reasons set forth below, the Court overrules Plaintiffs Objection, adopts the
R&R in full, and dismisses Plaintiffs Complaint without prejudice.
I.

Background
On September 10, 2018, Plaintiffs filed their Complaint and an application to

proceed in forma pauperis (“IFP”) [Doc. No. 2]. On September 27, 2018, Magistrate
Judge Rau denied the Plaintiffs’ IFP application on the grounds that First National
1

CASE 0:18-cv-02635-SRN-SER Document 26 Filed 01/18/19 Page 2 of 3

Repossessors, Inc. (“FNR”) was ineligible to proceed IFP. (Sept. 27, 2018 Order [Doc.
No. 5].) Plaintiffs were given 20 days to pay the required $400.00 filing fee and were
warned that, if they failed to do so, the action would be dismissed without prejudice for
failure to prosecute. (Id. at 2.) That deadline was later extended to November 19, 2018.
(Oct. 18, 2018 Order [Doc. No. 7].)
Plaintiffs never paid the required filing fee. As a result, on December 4, 2018,
Magistrate Judge Rau recommended that the Complaint be dismissed without prejudice.
(R&R at 3.) On December 19, 2018, Plaintiff filed a timely objection to Magistrate Judge
Rau’s R&R. (Obj. at 1.)
II.

Discussion
This Court reviews de novo any portion of the magistrate judge’s opinion to which

specific objections are made, and “may accept, reject, or modify, in whole or in part, the
findings or recommendations” contained in that opinion. 28 U.S.C. § 636(b)(1)(C); see
also Fed. R. Civ. P. 72(b); D. Minn. L.R. 72.2(b)(3).
First, Plaintiffs object to the Court’s failure to dismiss FNR from the case. (Obj. at
1.) Mashak previously requested that FNR be dismissed if Plaintiffs’ request for
additional time to pay the filing fee was not granted. (Defs.’ Oct. 19, 2018 Letter [Doc.
No. 9] at 1.) However, because the motion for an extension of time was granted, the
Court did not dismiss FNR from the case. (R&R at 2.) Neither Mashak nor FNR are
eligible for IFP status and the filing fee remains unpaid. (See Sept. 27, 2018 Order.)
Second, Plaintiffs object to the Court’s interpretation of the statutory requirement
that only natural persons may proceed IFP. (Obj. at 3-4.) However, the Court may not
2

CASE 0:18-cv-02635-SRN-SER Document 26 Filed 01/18/19 Page 3 of 3

disregard the IFP statute, 28 U.S.C. § 1915, or the clear direction of the Supreme Court
that “only a natural person may qualify for treatment in forma pauperis under § 1915.”
Rowlandv. California Men’s Colony, Unit II Men’s Advisory Council, 506 U.S. 194, 196
(1993).
Finally, Plaintiffs object to the Court’s failure to unseal certain records from state
court proceedings that he argues are relevant to this action. (Obj. at 10.) However,
Mashak’s request is moot in light of the Court’s decision to dismiss the case without
prejudice. (R&R at 3.)
IV.

Conclusion
Based on the foregoing, and all the files, records and proceedings herein, IT IS

HEREBY ORDERED that:
1. Plaintiffs’ Objection [Doc. No. 21] is OVERRULED;
2. Magistrate Judge Rau’s R&R [Doc. No. 20] is ADOPTED in its entirety; and
3. Plaintiffs’ Complaint [Doc. No. 1] is DISMISSED WITHOUT PREJUDICE.
LET JUDGMENT BE ENTERED ACCORDINGLY.

s/ Susan Richard Nelson
SUSAN RICHARD NELSON
United States District Judge

Dated: January 18, 2019

3

CASE 0:18-cv-02635-SRN-SER Document 20 Filed 12/04/18 Page 1 of 3

UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
Case No. 18-CV-2635 (SRN/SER)

FIRST NATIONAL REPOSSESSORS,
INC.; and DON MASHAK, Personally,
and as President of FNR,

REPORT AND RECOMMENDATION

Plaintiffs,
v.
COMMISSIONER OF INTERNAL
REVENUE,
Defendant.

In an order dated September 27, 2018, this Court denied the application to proceed
in forma pauperis (“IFP”) of plaintiffs First National Repossessors, Inc. (“FNR”) and Don
Mashak on the grounds that FNR was ineligible to proceed IFP. See ECF No. 5. Plaintiffs
were given 20 days to pay the required $400.00 filing fee, failing which it would be
recommended that this action be dismissed without prejudice for failure to prosecute. See
Fed. R. Civ. P. 41(b). That deadline was later extended to November 19, 2018. See ECF
No. 7.
That deadline has now passed, and plaintiffs have not yet paid the required filing
fee. Accordingly, this Court now recommends, in accordance with its prior order, that this
action be dismissed without prejudice under Rule 41(b) for failure to prosecute. See
Henderson v. Renaissance Grand Hotel, 267 Fed. App’x 496, 497 (8th Cir. 2008) (per
curiam) (“A district court has discretion to dismiss an action under Rule 41(b) for a

1

CASE 0:18-cv-02635-SRN-SER Document 20 Filed 12/04/18 Page 2 of 3

plaintiffs failure to prosecute, or to comply with the Federal Rules of Civil Procedure or
any court order.”). A few further comments are necessary, however.
First, Mashak previously requested an extension of time in which to pay the required
filing fee in this matter. In a letter sent to the Court before that request was granted, Mashak
asked that, should the extension not be granted, FNR be removed from this litigation and
the IFP application be reconsidered. See ECF No. 7. Mashak expressly noted that “[i]f
said request for additional time is granted, this request [to remove FNR from the litigation]
is rescinded.” Id. at 1. Mashak’s motion for an extension to pay the filing fee was granted;
accordingly, FNR remains a party to this litigation. And because FNR remains a party to
this action, neither plaintiff is eligible for IFP status, for the reasons explained in this
Court’s September 27 order.
Second, Mashak asks that this Court ignore the statutory requirement that only
natural persons may proceed IFP due to the extraordinary nature of the allegations in the
complaint. See ECF No. 16. The Court is not free to disregard the plain language of the
IFP statute, see 28 U.S.C. § 1915, or the clear direction of the Supreme Court that “only a
natural person may qualify for treatment in forma pauperis under § 1915.”1 Rowland v.
California Men’s Colony, Unit II Men’s Advisory Council, 506 U.S. 194, 196 (1993).
Third, Mashak was referred to the Federal Bar Association (“FBA”) for possible
assistance by a volunteer attorney. See ECF No. 8. The FBA declined to assist Mashak.

1 Even if the plaintiffs were each eligible for IFP status, this Court would recommend
dismissal of the action. See 28 U.S.C. § 1915(e)(2)(B). The complaint filed in this action
is nearly impossible to follow, full of irrelevancies and invective, and in many respects
frivolous.
2 .

CASE 0:18-cv-02635-SRN-SER Document 20 Filed 12/04/18 Page 3 of 3

See ECF No. 13. Mashak asks that the Court investigate “perceived irregularities” at the
FBA. See ECF No. 12. But the FBA — which provides volunteer assistance — had no
obligation to assist Mashak and could decline intervention for any reason or no reason
whatever. This Court has not appointed counsel to assist Mashak and would decline to do
so had such a request been made.
Fourth, Mashak asks that this Court order unsealed certain records from state court
proceedings that he argues are relevant to this action. See ECF No. 11. The request is
moot in light of the recommendation of dismissal.
RECOMMENDATION
Based upon the foregoing, and on all of the files, records, and proceedings herein,
IT IS HEREBY RECOMMENDED that this action be DISMISSED WITHOUT
PREJUDICE under Fed. R. Civ. P. 41(b) for failure to prosecute.
s/ Steven E.

Dated: December 4, 2018December 4, 2018
Rau

Steven E. Rau
U.S. Magistrate Judge

NOTICE
Filing Objections: This Report and Recommendation is not an order or judgment of the
District Court and is therefore not appealable directly to the Eighth Circuit Court of
Appeals.
Under Local Rule 72.2(b)(1), “a party may file and serve specific written objections to a
magistrate judge’s proposed finding and recommendations within 14 days after being
served a copy” of the Report and Recommendation. A party may respond to those
objections within 14 days after being served a copy of the objections. See Local
Rule 72.2(b)(2). All objections and responses must comply with the word or line limits set
forth in Local Rule 72.2(c).
3

Additional material
from this filing is
available in the
Clerk's Office.

